           Office Of Inspector General




                                   January 13, 2004

                                   WILLIAM P. GALLIGAN
                                   ACTING VICE PRESIDENT, DELIVERY AND RETAIL

                                   WILLIAM ALMARAZ
                                   MANAGER, LOS ANGELES DISTRICT

                                   SUBJECT: Management Advisory – Express Mail
                                            Processing in the Los Angeles District
                                            (Report Number NO-MA-04-001)

                                   This report presents the results of our review of Express
                                   Mail Processing in the Los Angeles District (Project Number
                                   03YN007AC000) and is part of our ongoing review of
                                   Express Mail. We initiated this review based on an inquiry
                                   we received that identified concerns with Express Mail
                                   packages originating in the Los Angeles, California, District.

Results in Brief                   We found the Postal Service did not collect postage due
                                   from some Express Mail packages originating in the
                                   Los Angeles District. We also identified problems with
                                   missing acceptance data for some Express Mail packages.
                                   As a result, the Postal Service may have lost a projected
                                   $185,600 in revenues from February 2002 through
                                   January 2003. In addition, the missing acceptance data
                                   makes it difficult to respond to customer inquiries about the
                                   status of Express Mail packages.

                                   We recommended Postal Service management collect
                                   postage due from unpaid Express Mail packages. We have
                                   assisted management with the recovery of lost revenue.
                                   We also recommended training and adherence to
                                   established procedures to prevent recurrence.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Express Mail Processing in the Los Angeles District                                                   NO-MA-04-001



                                  Postal Service management generally agreed with our
                                  recommendations and has recovered $157,427 in revenue
                                  from previously unpaid Express Mail packages.
                                  Management has also provided additional instruction and
                                  training on acceptance procedures and is developing new
                                  procedures to prevent recurrence of the issues identified in
                                  this report. Management’s comments, in their entirety, are
                                  included in Appendix B of this report.

Background                        Express Mail is an expedited mail service for documents and
                                  packages weighing up to 70 pounds. It is available for both
                                  domestic and selected foreign destinations. Express Mail is
                                  one of the Postal Service’s guaranteed on-time delivery
                                  services, and customers may request and receive a postage
                                  refund if an Express Mail package is not delivered on time.

                                  During fiscal year (FY) 2002, the Postal Service delivered
                                  approximately 61.2 million pieces of Express Mail,
                                  generating $910.5 million in revenue, or 1.4 percent of total
                                  mail revenues for the year. The Los Angeles District
                                  generated approximately $1.2 million in revenue from
                                  Express Mail corporate and federal agency accounts in
                                  FY 2002 and $1.7 million in FY 2001.

                                  As of June 30, 2002, the minimum postage for mailing an
                                  Express Mail package from a post office to a domestic
                                  addressee was $13.65. In lieu of affixing postage, Express
                                  Mail corporate and federal agency accounts give customers
                                  a convenient way to pay for Express Mail packages. These
                                  accounts enable customers to deposit money with the Postal
                                  Service or use a credit card to pay for Express Mail
                                  packages as needed.

                                  Express Mail is tracked from the point of acceptance to the
                                  point of delivery. To assure the initial induction time for an
                                  Express Mail package is established, the package must be
                                  entered into the electronic information and accounting
                                  system by an acceptance scan.1 This initial scan by a Point-
                                  of-Service ONE system is critical because it not only
                                  establishes the starting time for the Express Mail package in

1
  One of the scanning events for Point-of-Service ONE is to accept Express Mail and delivery confirmation pieces into
the mailstream allowing the infrastructure to electronically store delivery records and to permit easy access by
customers and Postal Service employees. All domestic delivery records are maintained electronically in a national
database, the Product Tracking System, Handbook PO-610, Signature Capture and Electronic Record Management:
Manager’s Guide to Standard Operating Procedures.




                                                          2
Express Mail Processing in the Los Angeles District                                        NO-MA-04-001



                                     the mailstream, but also the acceptance procedure ensures
                                     the collection of revenue from Express Mail corporate
                                     account and federal agency customers. When Express Mail
                                     packages are delivered without recording an acceptance
                                     scan, the Postal Service cannot accurately track the
                                     package and may lose Express Mail revenue.

Objectives, Scope,                   Our objectives were to determine (1) whether the Postal
and Methodology                      Service did not collect postage due from some Express
                                     Mail packages originating in the Los Angeles District, and
                                     (2) whether there was a problem with acceptance data for
                                     some Express Mail packages originating in Los Angeles. To
                                     accomplish our objectives, we interviewed Postal Service
                                     managers and employees. We reviewed regulations,
                                     manuals, instructions, and other supporting documentation
                                     including standard operating procedures for Express Mail.
                                     We relied on computer-processed data contained in the
                                     Electronic Marketing and Reporting System. However, we
                                     did not establish the reliability of this data due to the limited
                                     scope of this review.

                                     To determine Express Mail revenues not charged at the time
                                     of mail acceptance, we obtained a statistical sample of
                                     353 mailing labels (see Appendix A). Our sample allowed us
                                     to statistically project the amount of uncollected revenue
                                     from Express Mail corporate and federal agency accounts
                                     between February 1, 2002, and January 16, 2003. We also
                                     reviewed2 various reports relating to Express Mail volume
                                     and statistics. These reports provided data on historical
                                     trends for Express Mail accepted in the Los Angeles District.

                                     To determine whether there was a problem with acceptance
                                     data, we observed Express Mail processing at selected
                                     facilities. We also observed the scanning of Express Mail
                                     labels to determine whether the Postal Service accepted
                                     Express Mail packages from Express Mail corporate account
                                     and federal agency customers without recording acceptance
                                     data. In addition, we analyzed the Express Mail Unmatched
                                     Delivery Records Report, which details packages that have
                                     delivery information without finance information. Finally, we
                                     examined acceptance data transmitted from the Worldway



2
    We did not perform tests on accuracy and reliability of the report data.




                                                              3
Express Mail Processing in the Los Angeles District                                                     NO-MA-04-001




                                    Express Mail Point-of-Service ONE system to the Retail
                                    Consolidation Unit.3

                                    This review was conducted from March through
                                    January 2004 in accordance with the President’s Council on
                                    Integrity and Efficiency, Quality Standards for Inspections.
                                    We discussed our conclusions and observations with
                                    appropriate management officials and included their
                                    comments, where appropriate.

Prior Audit Coverage                In October 1996, the General Accounting Office (GAO)
                                    issued an audit report, Revenue Losses From Express Mail
                                    Accounts Have Grown (Report Number GAO/GGD-97-3).
                                    This review disclosed some mailers obtained Express Mail
                                    services using invalid Express Mail corporate accounts, and
                                    the Postal Service did not always collect the postage due. In
                                    addition, the Postal Service accepted and delivered some
                                    Express Mail packages without recording any data when it
                                    accepted the packages. As a result, the Postal Service
                                    could not accurately track and report the transactions.

                                    GAO recommended the Postal Service determine whether
                                    Express Mail corporate accounts were cost effective. If the
                                    Postal Service determined the Express Mail corporate
                                    accounts to be necessary, GAO recommended stronger
                                    requirements for opening accounts, and managers and
                                    employees be held accountable for handling transactions in
                                    accordance with policies and procedures. Postal Service
                                    management agreed with GAO’s findings and conclusions.

Revenue Losses                      Our review found Express Mail packages originating in
From Transmission                   Los Angeles from February 2002 through January 2003 may
Problems With                       have been delivered without collecting a projected $185,600
Express Mail Data                   in postage.4 During this period, the Point-of-Service ONE
                                    System at the Worldway Express Mail Unit did not
                                    successfully transmit acceptance scan information on
                                    Express Mail packages from customers using Express Mail
                                    corporate accounts or federal agency accounts.

                                    This transmission problem with Express Mail data occurred
                                    because the information in the Point-of-Service ONE

3
    The Retail Consolidation Unit is a system that consolidates various data, including Express Mail acceptance data.
4
    See Appendix A for a description of how the estimated lost revenue was calculated.




                                                            4
Express Mail Processing in the Los Angeles District                                                      NO-MA-04-001



                                   transmission did not match the ten-digit site identification
                                   number maintained for each location at the Retail
                                   Consolidation Unit. Each Point-of-Service ONE system must
                                   have a properly assigned finance number plus a four-digit
                                   unit identification number to comprise the ten-digit site
                                   identification number. The ten-digit identification number is
                                   used to log on and transmit information to the Retail
                                   Consolidation Unit. If the numbers do not match, the data
                                   will not be processed. Errors in transmission can also be
                                   caused by the use of the wrong Internet Protocol address.5
                                   In either case, the Retail Consolidation Unit automatically
                                   generates a daily transmission error report to alert users of
                                   such an event.

                                   Postal Service procedures on the installation of Point-of-
                                   Service ONE systems require test transmissions be
                                   conducted prior to using the system. We found no evidence
                                   the Postal Service had conducted the required test of
                                   transmissions.

                                   Even though a daily transmission error report was available
                                   to the district accounting office,6 management did not fully
                                   identify or take timely action to fully address the problem.
                                   However, when the error was brought to the attention of
                                   Los Angeles Expedited Services personnel, procedures
                                   were implemented to verify successful transmissions from
                                   the Worldway Express Mail Unit and to recover as much of
                                   the estimated $185,600 in lost revenue as possible. We
                                   have assisted management with the recovery of lost
                                   revenue.

Recommendation                     We recommend the manager, Los Angeles District:

                                        1. Collect revenue losses due to transmission problems
                                           with Express Mail packages originating in the
                                           Los Angeles District.




5
  Internet Protocol is a method by which data is sent from one computer to another on the Internet. Each computer
on the Internet has at least one Internet Protocol address that uniquely identifies it from all other computers on the
Internet.
6
  District accounting offices are being replaced by Shared Services Accounting.




                                                           5
Express Mail Processing in the Los Angeles District                               NO-MA-04-001




Management’s                   Postal Service management agreed with this
Comments                       recommendation and has taken actions to collect revenue
                               losses. Although management agreed with the methodology
                               we used to statistically estimate the revenue lost during the
                               period, management did not agree with the amount we
                               estimated. Management estimates the loss of revenue
                               ranged from $132,000 to $160,000.

Evaluation of                  Management’s comments are generally responsive to the
Management’s                   recommendation. Our estimate of $185,600 was based on a
Comments                       statistically valid sample that accounted for labels that may
                               have been incorrectly identified as corporate or federal
                               government accounts. However, based on our finding the
                               Postal Service actually recovered $157,427 in previously
                               unpaid Express Mail packages. Managements actions taken
                               should correct the issues identified in the report.

Recommendation                 We recommend the acting vice president, Delivery and
                               Retail:

                                   2. Ensure mandatory test transmissions are conducted
                                      with every Point-of-Service ONE installation.

Management’s                   Management generally agreed with this recommendation
Comments                       and stated that although test transmissions are standard
                               procedure, actual test transmissions to the Retail
                               Consolidation Unit are not practical at this time. However, a
                               new Retail Consolidation Unit “Missing Files Report” is now
                               available and will be utilized. This Retail Consolidation Unit
                               “Missing Files Report” identifies all units for which complete
                               data has not been received. Because of the availability of
                               this new report, and the scheduled completion of Point of
                               Service ONE installations within the next 12 months, Postal
                               Service management does not believe it is necessary to
                               devote resources to establish a Retail Consolidation Unit test
                               environment at this time.

Evaluation of                  Management’s comments are responsive to the
Management’s                   recommendation. Management’s alternative actions taken
Comments                       and planned regarding the “Missing Files Report” should
                               correct the issues identified in the report.




                                                      6
Express Mail Processing in the Los Angeles District                              NO-MA-04-001




Recommendation                 We recommend the acting vice president, Delivery and
                               Retail:

                                   3. Establish procedures to ensure finance number
                                      changes are coordinated with district finance, Shared
                                      Services Accounting, and Retail Consolidation Unit
                                      operations.

Management’s                   Management agreed with the recommendation. The acting
Comments                       vice president, Delivery and Retail is working with the
                               manager, Accounting, to develop procedures to ensure
                               finance number changes are properly coordinated. The
                               target date for finalizing these procedures is June 2004.

Evaluation of                  Management’s comments are responsive to this
Management’s                   recommendation. Management’s planned actions should
Comments                       correct the issues identified in the report.

Recommendation                     4. Establish procedures to ensure proper coordination
                                      and usage of daily transmission error reports between
                                      the Retail Consolidation Unit operator and the
                                      Expedited Services specialists.

Management’s                   Management agreed with the recommendation. The acting
Comments                       vice president, Delivery and Retail is working closely with
                               Engineering/Retail Consolidation Unit Operations and
                               Package Services/Expedited Service Specialists to establish
                               procedures to ensure proper coordination and usage of daily
                               transmission error reports. The target date for finalizing
                               these procedures is June 2004.

Evaluation of                  Management’s comments are responsive to the
Management’s                   recommendation. Management’s planned actions should
Comments                       correct the issues identified in the report.

Acceptance Data for            The Postal Service provided evidence that some Express
Some Express Mail              Mail originating in the Los Angeles District was received,
Packages Not                   sorted, and delivered without proper acceptance. This
Recorded                       situation occurred when customers dropped Express Mail
                               packages in collection boxes and employees were expected
                               to, but did not, record acceptance data at subsequent stages
                               of sorting and processing. The same situation can also




                                                      7
Express Mail Processing in the Los Angeles District                                                      NO-MA-04-001



                                   occur when mail is accepted at contract stations7 without the
                                   capability of initiating an acceptance scan. An acceptance
                                   scan is required to establish the start time that an Express
                                   Mail package entered the mailstream. The photograph
                                   below depicts a Postal Service employee completing an
                                   acceptance scan.




                                                Acceptance scan on a Point-of-Service ONE terminal.


                                   These conditions occurred because:

                                        •    Employees involved in accepting and processing
                                             Express Mail were not properly trained.

                                        •    Employees did not understand how to use the
                                             Unmatched Delivery Records report that showed
                                             improperly accepted Express Mail.

                                   As a result of missing acceptance scans, the Postal Service
                                   cannot adequately respond to customer inquiries about the
                                   status of Express Mail packages or process requests for
                                   refunds when customers claim packages were delivered late.
                                   In addition, when Express Mail is generated by Express Mail
                                   corporate account or federal agency customers, the Postal
                                   Service can lose revenue because these accounts may not
                                   be charged due to the lack of acceptance data. Further,
                                   when acceptance data is not recorded, the Postal Service

7
 Contract Station – A Postal Service unit that is a subordinate unit within the service area of a main post office. It is
usually located in a store or place of business and is operated by a contractor who accepts mail from the public, sells
postage and supplies, and provides selected special services, Glossary of Postal Terms, Postal Service
Publication 32.




                                                            8
Express Mail Processing in the Los Angeles District                               NO-MA-04-001



                               has incomplete data to report on-time delivery rates for
                               Express Mail.

                               During our review, Postal Service management at the
                               Los Angeles District established a task force to examine the
                               problem with missing acceptance scans for Express Mail
                               packages. The task force implemented an action plan to
                               address this issue; however, it was too early to assess
                               results during our review.

Recommendation                 We recommend the manager, Los Angeles District:

                                   5. Provide training on the importance of the acceptance
                                      scan to employees involved in accepting and
                                      processing Express Mail.

Management’s                   Management agreed with the recommendation. Employees
Comments                       on all tours at the Worldway Express Mail Unit received
                               instruction and communication on the acceptance and
                               processing of Express Mail. This was also addressed in a
                               February 2003 mandatory “Stand-Up Talk” in all delivery and
                               retail units in the Los Angeles Cluster.

Evaluation of                  Postal Service management’s comments are responsive to
Management’s                   the recommendation. Management’s actions taken should
Comments                       correct the issues identified in the report.

Recommendation                     6. Provide training on how to use and manage the
                                      Unmatched Delivery Records report.

Management’s                   Management agreed with the recommendation. In
Comments                       September 2003, a Los Angeles District’s Expedited Service
                               specialist provided training to Express Mail clerks on the use
                               and management of the Unmatched Delivery Records report.

Evaluation of                  Management’s comments are responsive to the
Management’s                   recommendation. Management’s actions taken should
Comments                       correct the issues identified in the report.




                                                      9
Express Mail Processing in the Los Angeles District                                 NO-MA-04-001




Other Matters of               During our review, we identified additional matters of
Concern                        concern.

                                   •   Employees cannot visually determine whether an
                                       Express Mail package has had an acceptance scan
                                       because there is no readily identifiable indication on
                                       the mailpiece.

                                   •   Employees expressed concerns about the frequency
                                       and format for the Unmatched Delivery Records
                                       report. The current report, based on the destination
                                       of an Express Mail package, makes it difficult to
                                       resolve unmatched records. In addition, delays in
                                       notification of unmatched records increase the
                                       complexity of resolving these issues.

                                   •   Employees can enter a future business date into the
                                       Point-of-Service ONE system and the system will
                                       accept the data. However, the Retail Consolidation
                                       Unit will reject this data because of the invalid
                                       business date.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions
                               or need additional information, please contact Robert J.
                               Batta, director, Network Operations - Processing, at
                               (703) 248-2100 or me at (703) 248-2300.



                               Mary W. Demory
                               Deputy Assistant Inspector General
                                for Operations and Human Capital

                               Attachment

                               cc: John A. Rapp
                                   Alfred Iniguez
                                   Julie F. Rios
                                   Susan M. Duchek




                                                      10
Express Mail Processing in the Los Angeles District                                   NO-MA-04-001



                 APPENDIX A. ESTIMATED LOSS OF REVENUE

     STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF
              EXPRESS MAIL, LOS ANGELES DISTRICT

Purpose of the Sampling
One of the sub-objectives of this audit was to identify the value of Express Mail postage
associated with corporate and federal agency accounts from the Worldway Express
Mail Unit between January 1, 2002, and January 16, 2003. In support of this sub-
objective, the audit team employed a stratified systematic sample of Express Mail
labels. The sample design allows statistical projection of the total value of Express Mail
postage associated with corporate and federal agency accounts from the Worldway
Express Mail Unit.

Definition of the Audit Universe
The audit universe consisted of all corporate and federal agency account Express Mail
labels from the Worldway Express Mail Unit between January 1, 2002, and January 16,
2003. The Express Mail labels were stored at the Los Angeles District office.

Sample Design and Modifications
Upon examination of the mailing labels on site, the team discovered mailing labels for
January 2002 were not available for review. To adjust for this, we redefined the audit
universe to consist of all corporate and federal agency Express Mail labels from the
Worldway Express Mail Unit between February 1, 2002, and January 16, 2003. The
universe consisted of 10,921 mailing labels. The team also discovered a small subset
of the sample that contained incorrect account numbers. These labels were deemed to
be out of scope.

The mailing labels were stratified into three strata and the sample was selected
systematically within each strata. The strata boundaries skip intervals and random
starts are given in the table below. A total of 353 labels were selected in the sample.

                                                                             Random Skip
  Stratum                Date Range                        Universe Sample    Start Interval
              February 1, 2002 - June 30,
       I      2002                                          8016     163       30      50
              July 1, 2002 - December 31,
       II     2003                                          2487     147        3      17
              January 1, 2003 - January 16,
      III     2003                                           418     43         3      10




                                                      11
Express Mail Processing in the Los Angeles District                           NO-MA-04-001



The sample size was based on a stratified random sample design. We calculated the
sample size for a two-sided confidence interval, at the 90 percent confidence level and
14 percent precision, based on a coefficient of variation of 150 percent. This sample
size is equivalent to a one-sided confidence interval, at the 95 percent confidence level.
We elected to use a one-sided confidence interval because of concern over possible
missing labels. The allocation to the strata was based on our judgment.

Statistical Projections of the Sample Data
For the projection of the total value of Express Mail postage associated with corporate
and federal agency accounts from the Worldway Express Mail Unit, the sample data
were analyzed using the formulas for estimation of a sub-population total (to account for
out of scope labels) as generally described in Chapters 5 and 11 of Elementary Survey
Sampling, Scheaffer, Mendenhall, and Ott, c.1990. Because the labels were stored by
date, we made the assumption that the universe was in random order in relation to
postage. This assumption was generally confirmed by examining scatter plots of
sampled labels within each stratum. The plots did not reveal any trends in the data. As
discussed in Chapter 7 of Scheaffer, Mendenhall, and Ott, this allowed for the variance
of the sample mean to be estimated based on simple random sampling within each
stratum.

Results
Based on projection of the sample results, we are 95 percent confident that the total
dollar amount of Express Mail postage associated with corporate and federal agency
accounts from the Worldway Express Mail Unit between February 1, 2002, and
January 16, 2003, was at least $173,980; the point estimate is $185,611. The achieved
relative precision is 6 percent.




                                                      12
Express Mail Processing in the Los Angeles District        NO-MA-04-001



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                      13
Express Mail Processing in the Los Angeles District        NO-MA-04-001




                                                      14
Express Mail Processing in the Los Angeles District        NO-MA-04-001




                                                      15
Express Mail Processing in the Los Angeles District        NO-MA-04-001




                                                      16
Express Mail Processing in the Los Angeles District        NO-MA-04-001




                                                      17
Express Mail Processing in the Los Angeles District        NO-MA-04-001




                                                      18
